No. 20-_ __

INTHE
SUPREME COURT OF THE UNITED STATES
JAMES MICHAEL HOOD,
Petitioner ,
vs.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF WORD COUNT
The undersigned hereby certifies that the Petition for Certiorari complies
with the requirements of the type-volume limitation of Rule 33. l(g)(i), Supreme
Court Rules, as it contains 8,010 words, excluding the question presented, list of
parties, list of related proceedings, table of contents, table of citations, and the
certificates of counsel. Certification is based on the word count of the wordprocessing system used in preparing t his Petition, Microsoft Word.
This the 26th day of August, 2020.

~Qr~

~

Assistant Federal Defender
Federal Defender Services
of Eastern Tennessee, Inc.
800 South Gay Street, Suite 2400
Knoxville, Tennessee 37929
(865) 637-7979

